TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Modernization and Information
                   Technology Services Organization Can
                 Improve Its Budget Formulation, Execution,
                           and Review Processes



                                            May 9, 2007

                              Reference Number: 2007-20-064




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             May 9, 2007


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Modernization and Information Technology
                             Services Organization Can Improve Its Budget Formulation, Execution,
                             and Review Processes (Audit # 200620015)

 This report presents the results of our review of the Internal Revenue Service (IRS)
 Modernization and Information Technology Services (MITS) organization budgeting and
 accounting activities. The overall objective of this review was to assess the adequacy of the
 processes and controls for developing, monitoring, and accounting for the MITS organization
 budget. This review was part of our Fiscal Year 2006 audit plan for reviews of the MITS
 organization.

 Impact on the Taxpayer
 The Financial Management Services (FMS) organization, under the Associate Chief Information
 Officer, Management, provides executive leadership, direction, and policy in all matters
 pertaining to budget and financial policy, formulation and financial analysis, and information
 technology services expense management across the MITS organization. We identified areas for
 improvement in the MITS organization budget formulation, execution, and review processes.
 These improvements will help provide more effective use of taxpayer funds in the MITS
 organization operations.

 Synopsis
 The MITS organization uses guidance provided by the Office of Management and Budget, the
 Chief Financial Officer, and the FMS organization to develop and manage its budget. The FMS
 organization has developed its own specific budget execution guidance, including the MITS
                          The Modernization and Information Technology Services
                             Organization Can Improve Its Budget Formulation,
                                    Execution, and Review Processes


Financial Operating Guidelines, to supplement the Office of Management and Budget and Chief
Financial Officer guidance.
The IRS budgets for Modernization Program hardware and contractor costs in the Business
Systems Modernization expenditure plan and funds the costs through the Information
Technology Investments account. With implementation of the HR Connect1 and the Integrated
Financial System computer applications, the IRS has been able to begin tracking its labor costs
associated with the Modernization Program.
The Modernization Program develops its budget based on the needs of the information
technology projects within the Program. Modernization Program budget estimates are based on
approved project business cases, and yearly allocations are made based on target completion
dates and project goals. These estimates are approved by IRS executives and reviewed by the
Government Accountability Office. However, the remainder of the MITS organization budget is
based on its prior year’s funding plus adjustments for inflation, salary increases, and funds
availability.
If a budget is not based on planned resources needed to achieve organizational goals, budget
shortfalls and overages can occur. When this happens, funds must be shifted between programs
and fund centers to allow the organization to achieve its goals. In Fiscal Year 2006, the MITS
organization had to move close to $624 million (almost 39 percent) of its $1.6 billion budget
between programs and fund centers to continue supporting the IRS’ computing needs.
The FMS organization Budget Planning Office is responsible for soliciting, receiving, reviewing,
and processing budget estimates from the MITS organization offices. However, there are no
formalized FMS organization procedures for the budget formulation process.
Fund centers are used to establish fund balances for program spending. The MITS organization
can transfer funds from one fund center to another to address budget shortages and surpluses that
occur during the fiscal year due to changes in program direction or in divisional priorities. The
Office of Management and Budget and IRS guidelines from the Chief Financial Officer require
reviews of financial plan spending to assess the execution of budget plans and make funding
adjustments, when necessary. We found the procedures for transferring funds were not always
followed and guidance for performing spending reviews is not complete.

Recommendations
To address the MITS organization budget development, we recommended the Chief Information
Officer implement a process to develop the entire MITS organization budget in line with the
Information Technology Modernization Vision and Strategy’s rolling 5-year prioritized plan.


1
    See Appendix IV for a glossary of terms.
                                                                                                  2
                    The Modernization and Information Technology Services
                       Organization Can Improve Its Budget Formulation,
                              Execution, and Review Processes


The budget process should consider organizational goals for each of the MITS organization
components and include costs for operations and maintenance of existing computer systems,
telecommunication systems, and other programs such as end-user support and help desk
activities.
To address the processes for budget formulation, execution, and monitoring, we recommended
the Chief Information Officer ensure (1) the draft Budget Cycle procedures are approved and
implemented timely; (2) the FMS organization supplements the budget formulation processes
with detailed procedures documenting FMS organization staff duties and responsibilities for
soliciting, receiving, reviewing, and reporting MITS organization budget estimates; (3) the draft
Budget Cycle document is approved timely and the spending review procedures are
implemented; and (4) the FMS organization supplements the spending review reporting with
additional procedures that identify Fund Center Changes necessary to realign funds in response
to spending review results.

Response
The Chief Information Officer agreed with all of our recommendations. Planned corrective
actions include developing a MITS organization 5-year strategic budget process to address the
information technology budget needs not covered by the Information Technology Modernization
Vision and Strategy. Additionally, the MITS organization plans to develop an implementation
schedule to ensure Budget Cycle and spending review documents are approved and distributed
timely. These plans include developing standard operating procedures for the FMS organization
staff and detailed standard operating procedures for Fund Center Changes. Management’s
complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                    3
                            The Modernization and Information Technology Services
                               Organization Can Improve Its Budget Formulation,
                                      Execution, and Review Processes




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Modernization and Information Technology Services Organization
          Has Developed Formal Guidance for Budget Execution and Is
          Improving Its Modernization Program Budget Process................................Page 3
          The Modernization and Information Technology Services Organization
          Budget Estimates Are Not Based Entirely on Program Objectives and
          Operations Planned for the Upcoming Budget Cycle...................................Page 4
                    Recommendation 1:........................................................Page 6

          The Modernization and Information Technology Services Organization
          Does Not Have Formal Procedures for the Budget Formulation Process ....Page 7
                    Recommendation 2:........................................................Page 8

          Procedures for Transferring Funds Were Not Followed, and Guidance
          for Performing Spending Reviews Is Not Complete ....................................Page 8
                    Recommendation 3:........................................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Glossary of Terms................................................................Page 16
          Appendix V – Management’s Response to the Draft Report .......................Page 18
       The Modernization and Information Technology Services
          Organization Can Improve Its Budget Formulation,
                 Execution, and Review Processes




                   Abbreviations

FMS          Financial Management Services
IRS          Internal Revenue Service
MITS         Modernization and Information Technology Services
                    The Modernization and Information Technology Services
                       Organization Can Improve Its Budget Formulation,
                              Execution, and Review Processes




                                     Background

The Internal Revenue Service (IRS) Financial
Management Services (FMS) organization, under the              The FMS organization manages
                                                                the MITS organization budget
Associate Chief Information Officer, Management,                formulation and execution as
provides executive leadership, direction, and policy in all        part of the IRS’ budget
matters pertaining to budget and financial policy,                     administration.
formulation and financial analysis, and information
technology services expense management across the
Modernization and Information Technology Services (MITS) organization. The FMS
organization also provides guidelines and direction on Federal Government budget and financial
policy for information technology investments and operations. The FMS organization has two
subordinate offices: the Budget Planning Office and the Budget Execution Office.
The Budget Planning Office establishes, maintains, and monitors adherence to budgetary policy
and guidance. It also provides customer support and executive overview of information
technology expense management. To accomplish its responsibilities, the Budget Planning Office
manages budget formulation, plan development, and analysis; conducts trend and operational
analyses; manages the MITS organization budget system, currently known as the Project
Tracking System; and provides customer support, direction, oversight, and analysis of MITS
organizationwide financial management issues.
The Budget Execution Office manages the MITS organization budget and all aspects of budget
execution, including certification, funding, transfers, and analyses. These responsibilities
include the development and distribution of financial guidance outlining rules governing the
expenditure of information technology resources, defining budgeting roles and responsibilities,
and establishing the timeline related to the development and execution of the MITS organization
budget. To accomplish its responsibilities, the Budget Execution Office ensures the information
technology plan aligns with customer strategies and objectives; guides and supports its customers
in all information technology budget execution matters so that they can deliver their functional
service and equipment requirements; develops and maintains the MITS organization budget
execution program policies and guidelines; develops and generates external reports and analysis
as needed by customers, external requesters, the Deputy Commissioner for Operations Support
and the Chief Information Officer; and manages resources associated with MITS
organizationwide programs (infrastructure, working capital fund, reimbursables, space, and
housing) to ensure optimum planning and execution of such resources to meet the Chief
Information Officer’s goals and objectives.




                                                                                          Page 1
                   The Modernization and Information Technology Services
                      Organization Can Improve Its Budget Formulation,
                             Execution, and Review Processes



The Associate Chief Information Officer, Applications Development, supports the management
of the MITS organization budget through the Resources Management Office, which works with
the FMS organization to develop, monitor, adjust, and report on the Modernization Program
portion of the MITS organization budget. The Resources Management Office is also responsible
for managing budgets of significant nonModernization Program applications in development.
This review was performed at the MITS organization facilities in New Carrollton, Maryland,
during the period August 2006 through February 2007. The audit was conducted in accordance
with Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II. Appendix IV presents a glossary of terms.




                                                                                      Page 2
                       The Modernization and Information Technology Services
                          Organization Can Improve Its Budget Formulation,
                                 Execution, and Review Processes




                                    Results of Review

The Modernization and Information Technology Services Organization
Has Developed Formal Guidance for Budget Execution and Is
Improving Its Modernization Program Budget Process
The MITS organization uses guidance provided by the
Office of Management and Budget, the IRS Chief
Financial Officer, and the FMS organization to manage        The MITS organization budget is
                                                               developed through guidance
and execute its budget. The Office of Management and          from the Office of Management
Budget provides high-level guidance in its Circular A-11,      and Budget and the IRS Chief
Preparation, Submission, and Execution of the Budget.1               Financial Officer.
The Chief Financial Officer supplements Circular A-11
with several specific IRS guidance documents, the most
comprehensive of which is the Chief Financial Officer’s Financial Operating Guidelines.
The FMS organization has developed its own specific budget execution guidance, including the
MITS Financial Operating Guidelines, to supplement the Office of Management and Budget and
Chief Financial Officer guidance. The FMS organization guidance includes detailed procedures
for spending plan development, monitoring, and execution. These procedures provide steps and
tasks for the FMS organization staff working with MITS organization resource transfers, internal
order accounting, obligations, commitments, and reimbursable transactions. The FMS
organization guidance also provides detailed procedures for working with the Modernization
Program budget.

The IRS is improving the process to account for labor costs associated with the
Modernization Program
The IRS budgets for Modernization Program hardware and contractor costs in the Business
Systems Modernization expenditure plan and funds the costs through the Information
Technology Investments account. However, the IRS budgets and funds labor costs associated
with the Modernization Program through the MITS organization Information Systems budget.
In November 2001, we reported the Modernization Program did not accurately account for IRS
costs associated with Modernization projects.2 We found that, while the IRS tracked and


1
 Circular A-11, Preparation, Submission, and Execution of the Budget, dated June 30, 2006.
2
 Modernization Project Teams Need to Follow Key Systems Development Processes (Reference
Number 2002-20-025, dated November 2001).
                                                                                             Page 3
                      The Modernization and Information Technology Services
                         Organization Can Improve Its Budget Formulation,
                                Execution, and Review Processes



monitored contractor costs, it had not established a means to accurately track and report the IRS
labor costs associated with Modernization projects.
With implementation of the HR Connect and the Integrated Financial System computer
applications, the IRS has been able to begin tracking its labor costs associated with the
Modernization Program through Internal Order codes. These codes allow the IRS to track costs
to individual projects as well as to general Modernization Program support, such as requirements
management and project testing. However, the current appropriation structure does not allow the
proper association of these costs with the Modernization Program.
In September 2006, the IRS submitted a request to Congress to change its process to budget and
account for Business Systems Modernization costs. The IRS requested that Congress add
$45 million to the Business Systems Modernization expenditure plan and Information
Technology Investments account for Modernization Program employee salaries.
Accounting for IRS labor costs associated with the
Modernization Program will allow for more accurate                      Accounting for IRS labor costs
reporting of Modernization Program and project costs to                       associated with the
outside stakeholders and will provide reliable data for use in            Modernization Program will
future budget considerations. Additionally, Modernization              allow the IRS to properly budget
Program management will be able to include these costs in                and fund all related Business
                                                                        Systems Modernization costs.
important internal progress measurements, such as earned
value management and return on investment.

The Modernization and Information Technology Services Organization
Budget Estimates Are Not Based Entirely on Program Objectives and
Operations Planned for the Upcoming Budget Cycle
The Modernization Program develops its budget based on the needs of the information
technology projects within the Program. Modernization Program budget estimates are based on
approved project business cases, and yearly allocations are made based on target completion
dates and project goals. These estimates are approved by IRS executives and reviewed by the
Government Accountability Office. The remainder of the MITS organization budget is based on
its prior year’s funding plus adjustments for inflation, salary increases, and funds availability.
We previously reported this condition in a March 2001 report,3 which stated the MITS
organization needed to shift significant amounts of funds within its appropriation ($360 million
in Fiscal Year 2000, almost $1 of every $4 budgeted) and requested an additional $40 million
from another appropriation to meet its budget needs. While much of the fund shifting and


3
 The Information Systems Organization Can Improve Processes to Manage Its Budget Appropriation (Reference
Number 2001-20-062, dated March 2001).
                                                                                                    Page 4
                         The Modernization and Information Technology Services
                            Organization Can Improve Its Budget Formulation,
                                   Execution, and Review Processes



transfers were due to the transition to a new MITS organizational structure that began during the
fiscal year, adjustments were also needed because of changes in program direction or divisional
priorities and revised or inaccurate plans. We recommended that improved controls for budget
monitoring and review would help the MITS organization assess its future budget requirements
and enhance the efficiency and effectiveness of its budget execution.
The Government Accountability Office identified similar conditions in a June 2002 report,4
stating the IRS had not developed its MITS organization budget request in accordance with the
best practices of leading organizations. The largest elements of the IRS budget request were not
projects or systems but requests for staffing levels or other services. The Government
Accountability Office also reported the IRS did not identify and assess the relative costs,
benefits, and risks of specific projects or systems. Instead,
the IRS simply took what was spent in the previous year in
these categories and added the money to fund                           Leading private- and
cost-of-living and salary increases.                             public-sector organizations take
                                                                          a project- or system-oriented
Leading private- and public-sector organizations identify                approach to managing not only
operations and maintenance projects and systems for                         new investments but also
                                                                         operations and maintenance of
inclusion in budget requests. They assess these projects or                     existing systems.
systems on the basis of expected costs, benefits, and risks
to the organization; analyze them as a portfolio of
competing funding options; and use this information to develop and support budget requests.
If a budget is not based on planned resources needed to achieve organizational goals, budget
shortfalls and overages can occur. When this happens, funds must be shifted between programs
and fund centers to allow the organization to achieve its goals. In Fiscal Year 2006, the MITS
organization had to move close to $624 million between programs and fund centers to continue
supporting the IRS’ computing needs. The FMS organization transferred almost $84 million of
the $624 million to an interim account while MITS organization management finalized funding
decisions. These transfers made up almost 39 percent of the $1.6 billion MITS organization
budget appropriation.
The FMS organization also transferred almost $79 million from the MITS organization to other
IRS activities. In addition, the MITS organization received an interappropriation transfer of
almost $69 million that was part of its Fiscal Year 2006 budget appropriation. Figure 1 presents
an analysis of the MITS organization budget reprogramming in Fiscal Year 2006.




4
    Improving Adequacy of Information Systems Budget Justification (GAO-02-704, dated June 2002).
                                                                                                    Page 5
                      The Modernization and Information Technology Services
                         Organization Can Improve Its Budget Formulation,
                                Execution, and Review Processes



                       Figure 1: MITS Organization Fiscal Year 2006
                              Budget Reprogramming Profile

                                The Fiscal Year 2006 MITS Organization Budget
                                              Totaled $1.6 Billion



                                                    $624 Transferred Within MITS Organization

                                        52%                          39%


                     $828                                 4%    5%

                Spent As Planned
                                                                       Transferred Out of MITS
                                                                  $79 Organization
                                                          $69
                                                            Planned Transfers Into MITS Organization
                  In millions                               From Another IRS Appropriation


           Source: Integrated Financial System – Report of Fiscal Year 2006 Reprogramming Activities.

In Fiscal Year 2008, the IRS will begin addressing resource requests for development,
Modernization, and enhancements through the Information Technology Modernization Vision
and Strategy. This will require the MITS organization divisions to develop their budgets based
on prioritized organizational needs. Incorporating funding plans into the Information
Technology Modernization Vision and Strategy will allow greater focus for future development
and help prioritize these efforts based on budgeting constraints.
Management Actions: Subsequent to our December 2006 briefing with MITS organization
managers on this topic and suggestion to improve the MITS organization budget formulation
process by incorporating its entire budget into the Information Technology Modernization Vision
and Strategy, we were advised the MITS organization began planning a process to incorporate
our suggestion.

Recommendation
Recommendation 1: The Chief Information Officer should implement a process to develop
the entire MITS organization budget in line with the Information Technology Modernization
Vision and Strategy’s rolling 5-year prioritized plan. The budget process should consider
organizational goals for each of the MITS components and include costs for operations and
maintenance of existing computer systems, telecommunication systems, and other programs such
as end-user support and help desk activities.
       Management’s Response: The Chief Information Officer agreed with this
       recommendation and plans to develop a MITS organization 5-year strategic budget
                                                                                                        Page 6
                      The Modernization and Information Technology Services
                         Organization Can Improve Its Budget Formulation,
                                Execution, and Review Processes



        process, in conjunction with the Core Services budget, to address the rest of the
        information technology budget not covered by the Information Technology
        Modernization Vision and Strategy.

The Modernization and Information Technology Services Organization
Does Not Have Formal Procedures for the Budget Formulation
Process
The MITS organization budget is developed and executed through the FMS organization, whose
Budget Planning Office is responsible for soliciting, receiving, reviewing, and processing budget
estimates from the MITS organization offices. However, there are no formalized FMS
organization procedures for the budget formulation process.
In a March 2001 report,5 we reported the Financial Planning and Budget Office Formulation
Section (now referred to as the Budget Planning Office) did not document questioned data or
discrepancies identified in the budget estimates received from the Information Systems
organization (now the MITS organization) divisions. It did not have any written guidelines or
operating procedures documenting staff duties and responsibilities for soliciting, receiving,
reviewing, and reporting Information Systems organization budget estimates submitted from the
Information Systems organization.
The Chief Information Officer’s corrective action, which was documented as completed on
July 1, 2001, stated that standard operating procedures would be implemented during the
Fiscal Year 2003 budget formulation cycle. However, we have been unable to obtain any
evidence that these standard operating procedures were developed.
If budget estimates are not consistently and appropriately solicited, received, reviewed, and
reported, the resulting budgets may not provide the resources needed to achieve organizational
goals. As a result, shortages and overages can occur, causing the need to shift funds between
programs and fund centers to meet operational requirements.
Management Actions: The FMS organization has developed a draft Budget Cycle document that
defines, in broad terms, the activities and rules governing the MITS organization budget. As of
December 6, 2006, this document was a draft and was expected to be approved and issued during
Fiscal Year 2007. The FMS organization also is in the process of planning specific guidelines
for the budget formulation process.




5
 The Information Systems Organization Can Improve Processes to Manage Its Budget Appropriation (Reference
Number 2001-20-062, dated March 2001).
                                                                                                    Page 7
                    The Modernization and Information Technology Services
                       Organization Can Improve Its Budget Formulation,
                              Execution, and Review Processes



Recommendation
Recommendation 2: The Chief Information Officer should ensure (1) the draft Budget Cycle
procedures are approved and implemented timely and (2) the FMS organization supplements the
budget formulation processes with detailed procedures documenting FMS organization staff
duties and responsibilities for soliciting, receiving, reviewing, and reporting MITS organization
budget estimates.
       Management’s Response: The Chief Information Officer agreed with this
       recommendation and plans to develop an implementation schedule to ensure Budget
       Cycle documents are approved and distributed timely. In addition, the Chief Information
       Officer plans to develop detailed standard operating procedures for the FMS organization
       staff.

Procedures for Transferring Funds Were Not Followed, and Guidance
for Performing Spending Reviews Is Not Complete
Fund centers are used to establish fund balances for program spending. The MITS organization
can transfer funds from one fund center to another to address budget shortages and surpluses that
occur during the fiscal year due to changes in program direction or changes in divisional
priorities. These transfers are referred to as Fund Center Changes. The Office of Management
and Budget and IRS guidelines from the Chief Financial Officer require reviews of financial plan
spending to assess the execution of budget plans and make funding adjustments, when necessary.

The MITS organization did not follow prescribed guidelines in managing and
approving changes to its budget
To work within budget constraints, a Fund Center Change request should be initiated by the
office providing additional funding and must be approved and signed by the appropriate official
who is furnishing the funds (such as the Division Director or designated approving official,
Division Information Officer, or Division Financial Plan manager or delegated budget contact).
A Fund Center Change request for labor funding should be initiated using a Fund Center Change
request document. The request is submitted to the FMS organization and processed in the
Budget Execution Office.
The MITS organization did not always follow prescribed criteria when processing Fiscal
Year 2006 Fund Center Change requests. We reviewed a sample of 64 Fiscal Year 2006 Fund
Center Change requests involving almost $500 million in fund transfers within the MITS
organization financial plan. We found 28 problems in the preparation and processing of
23 (36 percent) of the 64 Fund Center Change requests, including:
   •   Fund Center Changes initiated by MITS organization offices not providing the additional
       funding – 13 requests (20 percent).
                                                                                          Page 8
                      The Modernization and Information Technology Services
                         Organization Can Improve Its Budget Formulation,
                                Execution, and Review Processes



    •   Fund Center Changes without evidence of managerial approval or review –
        7 requests (11 percent).
    •   Fund Center Changes without sufficient documentation to support reasons for the
        change – 4 requests (6 percent).
    •   Fund Center Changes without the proper Fund Center Change request form or a similar
        document containing required information – 4 requests (6 percent).
Although the MITS organization has guidelines for the appropriate processing of Fund Center
Change requests, the Budget Execution Office did not ensure all requests were appropriate,
justified, and properly approved. This condition was reported in our previously cited
March 2001 report, which stated the MITS organization had not ensured Fund Center Change
requests were processed following the required criteria. The
Chief Information Officer responded that the MITS
organization would issue financial operating guidelines to        Adequate internal controls for
ensure Fund Center Change requests are processed with           processing   Fund Center Change
                                                                 requests can prevent extending
appropriate reviews and approvals.                                 the effects of a shortage or
We again reported this condition in a February 2003 report,6     surplus in a program initiative.
which stated about 15 percent of the budget adjustments we
reviewed were processed without evidence of appropriate
managerial review, approval, or documentation. The Chief Information Officer responded that
guidelines had been clarified to ensure all MITS organization budget adjustments are processed
consistently. The Chief Information Officer also provided a plan for monitoring whether the
updated guidance is being followed. The monitoring plan directs the Budget Execution Office to
perform monthly reviews to ensure MITS organization Financial Operating Guidelines are in
place and being followed. The FMS organization could not provide us with evidence of any
reviews of the implementation or performance of these guidelines.
Adequate internal controls are necessary to ensure Fund Center Change requests are properly
documented, approved, and reviewed to prevent misapplication of funds. Incorrect Fund Center
Changes can create discrepancies in other financial plans, requiring additional Fund Center
Changes to correct the errors. In addition, the absence of controls over Fund Center Changes
may affect the accuracy of the amounts budgeted for program initiatives and can affect decisions
involving the development of future-year budget estimates.




6
 Management of the Information Systems Budget Has Improved, but Additional Progress Can Be Made (Reference
Number 2003-20-070, dated February 2003).

                                                                                                   Page 9
                    The Modernization and Information Technology Services
                       Organization Can Improve Its Budget Formulation,
                              Execution, and Review Processes



The MITS organization budget appropriation spending review process can be
improved
The Office of Management and Budget requires agencies to review financial plan spending to
assess the execution of budget plans and make funding adjustments when necessary. The Chief
Financial Officer guidance requires performance of periodic budget spending reviews by the
MITS organization. However, the MITS organization does not have formal procedures for
performing spending reviews and reporting the results of these reviews. In addition, the MITS
organization does not regularly perform spending reviews. Two spending reviews were
performed during Fiscal Year 2006. The FMS organization used a contractor to help it perform a
formal spending review in February 2006 and reported the results to MITS organization
executives. A second, informal spending review was performed by the FMS organization in
April 2006.
In our previously cited March 2001 report, we reported that, while spending reviews were
performed and documented, the results were not adequately brought to the attention of financial
plan managers or budget analysts to timely correct imbalances. The Chief Information Officer’s
corrective action, which was documented as completed in June 2001, was to implement
guidelines for spending reviews in Fiscal Year 2001. The corrective action planned for these
guidelines was to contain feedback mechanisms to ensure review results included approved
spending levels, identified the need for timely financial plan changes (now called Fund Center
Changes) to realign funds, and recognized potential subsequent-year effects. The guidelines
were going to require that review results be communicated to the FMS organization, MITS
organization executives, and business partners. However, we have been unable to obtain these
guidelines.
The Chief Financial Officer is required to report financial plan balances to the Department of the
Treasury monthly and to the Office of Management and Budget quarterly. These entities rely on
accurate financial plan balances for use in planning and monitoring budget appropriations. The
absence of sufficient spending reviews and reporting of review results precludes the meaningful
analysis of current-year budget status and future-year planning.
Management Actions: As previously mentioned, the FMS organization has developed a draft
Budget Cycle document that defines, in broad terms, the activities and rules governing the MITS
organization budget. This document also includes procedures for performing spending reviews
and reporting the results.

Recommendation
Recommendation 3: The Chief Information Officer should ensure (1) the draft Budget Cycle
document is approved timely and the spending review procedures are implemented and (2) the
FMS organization supplements the spending review reporting with additional procedures that
identify Fund Center Changes necessary to realign funds in response to spending review results.

                                                                                          Page 10
             The Modernization and Information Technology Services
                Organization Can Improve Its Budget Formulation,
                       Execution, and Review Processes



Management’s Response: The Chief Information Officer agreed with this
recommendation and plans to develop an implementation schedule to ensure Budget
Cycle and spending review documents are approved and distributed timely. In addition,
the Chief Information Officer plans to develop detailed standard operating procedures for
Fund Center Changes.




                                                                                 Page 11
                          The Modernization and Information Technology Services
                             Organization Can Improve Its Budget Formulation,
                                    Execution, and Review Processes



                                                                                    Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the adequacy of the processes and controls for
developing, monitoring, and accounting for the MITS organization budget. This review was part
of our Fiscal Year 2006 audit plan for reviews of the MITS organization.
To accomplish our objective, we identified the internal control systems and criteria used as
guidance for the development and execution of the MITS organization budget. These systems
and criteria include guidance provided by the Office of Management and Budget, the IRS Chief
Financial Officer, the Internal Revenue Manual, and the operations of the Integrated Financial
System.1 We reviewed available documentation and interviewed staff members from the FMS
organization and the Application Development organization Resources Management Office.
Specifically, we:
I.         Determined whether the FMS organization’s policies and procedures enabled effective
           formulation, development, and monitoring of the MITS organization budget.
II.        Determined whether the FMS organization had adequate internal controls for its budget
           formulation to provide appropriate reviews of MITS organization budget estimates and to
           process the estimates into the MITS organization budget.
III.       Reviewed the MITS organization budget execution processes to determine whether all
           critical internal controls were implemented and whether they provide for an accurate
           accounting of the MITS organization’s operations. As part of this assessment, we
           selected judgmental samples of a total of 64 Fund Center Change requests from the
           2,092 Fund Center Change requests made during Fiscal Year 2006. Our selection was
           based on the dollar amount of the request and on the originator and receiver of the
           funding so we reviewed requests from each MITS organization division. We used
           judgmental samples because we did not plan to project our audit results.
           A. Selected a judgmental sample of 20 Fund Center Change transactions from the
              208 transfers made between fund centers in the MITS organization.
           B. Selected a judgmental sample of 16 Fund Center Change requests for
              intra-appropriation transactions from the 553 transactions made between divisions in
              the MITS organization.




1
    See Appendix IV for a glossary of terms.
                                                                                           Page 12
                         The Modernization and Information Technology Services
                            Organization Can Improve Its Budget Formulation,
                                   Execution, and Review Processes



          C. Selected a judgmental sample of 27 Fund Center Change requests for
             intra-appropriation transactions from the 1,330 transactions made within divisions in
             the MITS organization.
          D. Reviewed the one interappropriation transfer made to the MITS organization from the
             IRS.
IV.       Reviewed the MITS organization budget formulation processes to determine whether
          sufficient internal controls were in place to ensure the accuracy of budget formulation
          and execution for the Business Systems Modernization expenditures.

Validity and reliability of data from computer-based systems
The IRS provided Integrated Financial System information showing Fiscal Year 2006 budget
allocations, Fund Center Changes, intra-appropriation transfers, and interappropriation transfers.
We relied on the Government Accountability Office’s assessment of the reliability of the
computer-processed data from the Integrated Financial System. During a review of the IRS’
financial statements, the Government Accountability Office concluded the expense and
reimbursable revenue information processed through the Integrated Financial System for Fiscal
Years 2005 and 2006 was reliable in all material respects.2




2
    IRS’s Fiscal Years 2006 and 2005 Financial Statements (GAO-07-136, dated November 2006).
                                                                                               Page 13
                   The Modernization and Information Technology Services
                      Organization Can Improve Its Budget Formulation,
                             Execution, and Review Processes



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Edward A. Neuwirth, Audit Manager
James A. Douglas, Senior Auditor
Michael A. Garcia, Senior Auditor
Glen J. Rhoades, Senior Auditor




                                                                                     Page 14
                  The Modernization and Information Technology Services
                     Organization Can Improve Its Budget Formulation,
                            Execution, and Review Processes



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Applications Development OS:CIO:AD
Associate Chief Information Officer, Management OS:CIO:M
Director, Stakeholder Management OS:CIO:SM
Deputy Associate Chief Information Officer, Business Integration OS:CIO:ES:BI
Director, Financial Management Services OS:CIO:M:FM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Information Officer, Applications Development OS:CIO:AD
       Associate Chief Information Officer, Management OS:CIO:M
       Director, Program Oversight OS:CIO:SM:PO




                                                                                 Page 15
                The Modernization and Information Technology Services
                   Organization Can Improve Its Budget Formulation,
                          Execution, and Review Processes



                                                                      Appendix IV

                           Glossary of Terms

Term                                 Definition
Division Information Officer         Division Information Officers are the
                                     information systems executives dedicated
                                     to each IRS operating division.
Earned Value Management              Earned value management involves
                                     measuring actual cost and work
                                     accomplished against the budgeted cost and
                                     planned work scheduled. Variances are
                                     analyzed for decision making.
e-Services                           The e-Services project provides a set of
                                     web-based business products as incentives
                                     to third parties to increase electronic filing,
                                     in addition to providing electronic
                                     customer account management capabilities
                                     to all businesses, individuals, and other
                                     customers.
Fund Center                          A fund center, formerly referred to as a
                                     financial plan, is a designated program area
                                     requiring a resource distribution. Fund
                                     centers are used to establish fund balances
                                     for program spending.
HR Connect                           The HR Connect application delivers an
                                     enterprise solution to allow IRS employees
                                     to access and manage their human
                                     resources information online.




                                                                                Page 16
                The Modernization and Information Technology Services
                   Organization Can Improve Its Budget Formulation,
                          Execution, and Review Processes



Term                                   Definition
Information Technology Modernization   The Information Technology
Vision and Strategy                    Modernization Vision and Strategy
                                       establishes a 5-year plan that drives
                                       investment decisions; addresses the
                                       priorities around modernizing front-line tax
                                       administration and supporting technical
                                       capabilities; and leverages existing systems
                                       (where possible) and new development
                                       (where necessary) to optimize capacity,
                                       manage program costs, and deliver
                                       business value on a more incremental and
                                       frequent basis.
Integrated Financial System            The Integrated Financial System is
                                       intended to address administrative financial
                                       management weaknesses. The first release
                                       of the Integrated Financial System included
                                       the Accounts Payable, Accounts
                                       Receivable, General Ledger, Budget
                                       Execution, Cost Management, and
                                       Financial Reporting activities. A future
                                       Integrated Financial System release will be
                                       needed to fully resolve all administrative
                                       financial management weaknesses.
Return on Investment                   Return on investment is the net profit or
                                       loss in an accounting period divided by the
                                       capital investment used during the period,
                                       usually expressed as an annual percentage
                                       return.
Working Capital Fund                   A working capital fund is a fund
                                       established to finance operating activities.




                                                                                Page 17
      The Modernization and Information Technology Services
         Organization Can Improve Its Budget Formulation,
                Execution, and Review Processes



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 18
The Modernization and Information Technology Services
   Organization Can Improve Its Budget Formulation,
          Execution, and Review Processes




                                                   Page 19
The Modernization and Information Technology Services
   Organization Can Improve Its Budget Formulation,
          Execution, and Review Processes




                                                   Page 20
The Modernization and Information Technology Services
   Organization Can Improve Its Budget Formulation,
          Execution, and Review Processes




                                                   Page 21
The Modernization and Information Technology Services
   Organization Can Improve Its Budget Formulation,
          Execution, and Review Processes




                                                   Page 22
